Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   MEDICAID PAYMENTS FOR
 THERAPY SERVICES IN EXCESS
      OF STATE LIMITS




                    Daniel R. Levinson
                     Inspector General

                      March 2012
                     OEI-07-10-00370
EXECUTIVE SUMMARY: MEDICAID PAYMENTS FOR THERAPY
SERVICES IN EXCESS OF STATE LIMITS
OEI-07-10-00370


WHY WE DID THIS STUDY

Past Office of Inspector General work has shown that Medicare- and Medicaid-paid
physical, occupational, and speech therapy services were vulnerable to improper
payments because (1) plans of care were incomplete or missing; (2) documentation was
missing, or providers failed to respond to our request for documentation; or (3) providers
lacked proper qualifications, or we could not determine whether they had proper
qualifications.

HOW WE DID THIS STUDY

We asked Medicaid staff from all States and the District of Columbia (States) to respond
to a questionnaire requesting information about whether their States placed limits on
therapy services, and if so, the nature of those limits. We examined paid Medicaid
fee-for-service claims for therapy services in eight States (Arkansas, Florida, Hawaii,
Illinois, Maine, Maryland, Michigan, and North Carolina) for the period July 1, 2008,
through June 30, 2009, to determine whether the therapy services complied with State
limits. We asked State Medicaid officials to describe the safeguards established to
prevent payments in excess of State limits. We also asked State Medicaid staff to
identify the reason(s) States’ safeguards failed to prevent payments in excess of State
limits.

WHAT WE FOUND

Thirty-five of the forty-eight States that paid for any type of Medicaid therapy services
placed limits on the amount of services a beneficiary could receive. All eight States we
reviewed described safeguards established to prevent payments in excess of State limits;
however, six of those States improperly paid claims totaling approximately $744,000.
Three States paid claims for therapy services that were potentially improper. Although
we identified a relatively low number of claims for therapy services paid improperly, the
errors were easily preventable in most instances. Several States reported improving their
program integrity safeguards to address our findings.

WHAT WE RECOMMEND

We recommend that the Centers for Medicare & Medicaid Services (CMS) work with
States to prevent Medicaid payments for therapy services in excess of State limits and to
follow up on the inappropriate claims identified in our review. CMS concurred with our
recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................3
Findings........................................................................................................6
           Thirty-five State Medicaid programs established limits on
           therapy services ................................................................................6
           All eight States reported safeguards to prevent
           payments in excess of State limits ...................................................7
           Despite reported program safeguards, six States improperly
           paid claims for therapy services totaling $744,000 .........................9
           Three States reviewed paid claims for therapy services that
           were potentially improper .............................................................. 11
Recommendations ......................................................................................13
           Agency Comments and Office of Inspector General Response.....13
Appendixes ................................................................................................15
           A: State Limits on Medicaid Therapy Services ............................15
           B: Sampled States’ Limits on Therapy Services ...........................20
           C: Agency Comments ...................................................................22
Acknowledgments......................................................................................25
             OBJECTIVES
             1. To describe the limits that States established on physical; occupational;
                  and speech, hearing, and language therapy services.
             2. To identify payment safeguards that States established to prevent
                  payments for therapy services in excess of State limits.
             3. To identify Medicaid payments for therapy services that exceeded
                  State limits.

             BACKGROUND
             Previous Office of Inspector General (OIG) work has shown that
             Medicare- and Medicaid-paid therapy services were vulnerable to
             improper payments because (1) plans of care were incomplete or missing;
             (2) documentation was missing, or providers failed to respond to requests
             for documentation; or (3) providers lacked proper qualifications, or we
             could not determine whether they had proper qualifications. However,
             prior to this report, we had not assessed whether Medicaid payments for
             therapy services were paid in excess of State limits. Identifying the extent
             of improper payments for therapy services and the reasons safeguards fail
             to prevent them will assist in ensuring the integrity of the Medicaid
             program.
             Title XIX of the Social Security Act (the Act) requires State Medicaid
             programs to provide certain basic medical services (e.g., physician
             services, hospital care, nursing facility care) to all categorically needy
             recipients. 1 Additionally, the Act allows States to provide optional
             services—such as physical; occupational; and speech, hearing, and
             language (speech) therapy—through their Medicaid State plans. 2 In fiscal
             year (FY) 2008, approximately $700 million for 16 million claims was
             paid for physical, occupational, and speech therapy services (therapy
             services). 3 This $700 million represents both the State and Federal shares
             of the expenditures.


             1 Medicaid is funded by both the Federal and State governments. Under § 1903 (a)(1) of the Act, the Federal
             Medical Assistance Percentage (FMAP) is used to determine the amount of Federal matching funds for State
             medical assistance expenditures. Sections 1905(b) and 1101(a)(8)(B) of the Act specify the basic formula for
             calculating the FMAP.
             2 Therapy services can be provided through the home health benefit (§ 1905(a)(7) of the Act;
             42 CFR § 440.70); the Early Periodic Screening, Diagnosis, and Treatment benefit (§ 1905(a)(4)(B) of the Act;
             42 CFR § 441.50); the rehabilitative services benefit (§ 1905(a)(13) of the Act; 42 CFR § 440.130); and various
             types of waivers.
             3 Medicaid Statistical Information System State Summary Datamart. Accessed at http://msis.cms.hhs.gov/ on

             August 19, 2011. The most recent data available for all 51 State Medicaid programs are from FY 2008.


OEI-07-10-00370         Medicaid Payments for Therapy Services in Excess of State Limits                                    1
             State Limitations on Therapy Services
             States may establish limits on the amount, duration, and scope of the
             Medicaid services they will cover, as long as each service is sufficient to
             reasonably achieve its purpose. 4 Such limits are included in the State
             Medicaid plan that the Centers for Medicare & Medicaid Services (CMS)
             approves. State-established limits include the number of therapy services,
             hours of therapy services, or total dollar amount the Medicaid program
             will pay for each beneficiary during a certain period. In some States, a
             single limit may include more than one type of therapy service—for
             example, a State could limit beneficiaries to 60 hours per year of physical
             and occupational therapy combined.
             State Payment Safeguards
             For many types of Medicaid services, States establish safeguards to
             prevent improper payments, including payment system edits, utilization
             reviews, and postpayment audits. One example of a payment system edit
             is to track the number of units or hours paid per recipient in a certain
             period and automatically deny payments for additional services once the
             limit is reached. In utilization reviews, staff typically examine paid claims
             for therapy services to determine whether payments were made for
             services in excess of established limits. Finally, postpayment audits
             consider whether the payments made to a particular provider were
             appropriate according to Federal and State rules, including service limits.
             Related Reports
             A 2006 OIG study of Medicare payments for physical therapy services
             billed by physicians found that 91 percent of the payments allowed by
             Medicare during the first 6 months of 2002 did not meet program
             requirements, resulting in $136 million in improper payments. 5 That
             study found patterns in physician billing that suggest that physical therapy
             is vulnerable to abuse. Four percent of physicians who submitted physical
             therapy claims made more than half of all allowed claims in 2004.
             Additionally, 134 physicians billed Medicare for more than 500 patients
             during the same period. The median number of patients per physician in
             the study was eight.
             Another 2006 OIG study, which reviewed Medicaid claims for
             school-based therapy services, found that 43 out of 150 sampled claims
             did not meet Federal requirements regarding providers of therapy
             services. 6 The study found that either the providers did not meet Federal

             4 42 CFR § 440.230.
             5 OIG, Physical Therapy Billed by Physicians, OEI-09-02-00200, May 2006.
             6 OIG, Review of Medicaid Claims for School-Based Health Services in New Jersey, A-02-03-01003,

             May 2006.


OEI-07-10-00370          Medicaid Payments for Therapy Services in Excess of State Limits                      2
             provider qualification requirements or their qualifications could not be
             documented.

             METHODOLOGY
             Scope and Limitations
             This evaluation identified Medicaid fee-for-service claims for therapy
             services in eight States that exceeded State limits on amount, duration,
             and/or scope from July 1, 2008, through June 30, 2009. We examined
             Medicaid paid claims for therapy services provided only through
             fee-for-service arrangements. We did not determine whether therapy
             services were medically necessary or whether the providers were
             qualified. We did not test the effectiveness of payment safeguards that
             States established to prevent payments for therapy services in excess of
             State limits.
             State Selection
             In the summer of 2010, we asked Medicaid staff from all States and the
             District of Columbia (States) to respond to a questionnaire requesting
             information about (1) whether their States provided therapy services paid
             on a fee-for-service basis from July 1, 2008, through June 30, 2009;
             (2) whether their States placed limits on those services; and (3) if so, the
             nature of those limits. It was necessary to collect this information from
             State Medicaid programs to select States for our review. We received
             responses from all 51 States. From the responses, we identified
             six primary types of therapy limits (e.g., maximum number of units per
             specific procedure code in a specified timeframe, maximum number of
             units of service in a specified timeframe based on diagnosis). We grouped
             six States’ responses into an “Other” category because their limits were
             not similar to those of other States.
             We selected States for further review based on two criteria: (1) higher
             dollar expenditures for therapy services among all State Medicaid
             programs; and (2) representation of each type of limit we identified,
             including the “Other” category. We selected the following eight States for
             review: Arkansas, Florida, Hawaii, Illinois, Maine, Maryland, Michigan,
             and North Carolina. Therapy service expenditures in these States
             accounted for 61 percent of national Medicaid spending on therapy
             services in FY 2008. All eight States provided each type of therapy
             services (i.e., physical, occupational, and speech) and imposed a limit on
             each type of service during the study period.
             Structured Interviews With State Medicaid Staff
             We conducted structured interviews by conference call with Medicaid
             agency staff in each selected State. During these interviews, we collected

OEI-07-10-00370     Medicaid Payments for Therapy Services in Excess of State Limits      3
             information regarding the authorities through which therapy services were
             provided (e.g., benefit category), how the limits applied to these
             authorities, how therapy services were billed, and what safeguards existed
             to prevent payment of therapy services in excess of State limits. We also
             collected copies of the relevant sections of State Medicaid plans and State
             Medicaid manuals.
             Claims Data and Analysis
             We requested data from each selected State’s Medicaid Management
             Information System for all final paid claims for therapy services provided
             from July 1, 2008, through June 30, 2009. 7 Table 1 shows the number and
             dollar amount of those claims.
             Table 1: Medicaid-Paid Claims for Therapy Services, July 1, 2008, Through
             June 30, 2009

                  State                   Number of Claims                       Dollar Amount

                  Arkansas                                  439,522                     $29,518,966

                  Florida                                 1,467,340                     $82,219,947

                  Hawaii                                     23,553                         $560,809

                  Illinois                                  737,518                     $41,071,817

                  Maine                                     191,479                       $6,322,529

                  Maryland                                   13,150                         $235,259

                  Michigan                                  288,722                     $12,097,106

                  North Carolina                            746,822                     $47,802,908

                      Total                               3,918,348                    $219,829,341

             Source: Claims for therapy services submitted by States, 2011.

             In addition to requesting the claims information in Table 1, we requested
             claims data for hospital outpatient services from two States to determine
             whether the limits on therapy services were exceeded. The Arkansas and
             Florida Medicaid programs established a hospital outpatient service limit
             that included therapy services for recipients over the age of 21. For those
             States, we determined whether hospital outpatient service limits were
             exceeded. In addition to submitting the claims in Table 1, the Arkansas
             Medicaid program submitted 31,346 claims totaling $1,974,623 and the
             Florida Medicaid program submitted 10,242 claims totaling $715,519 for
             the period of our review.


             7 We did not verify the number or dollar amount of claims that States reported to us with any other data source.



OEI-07-10-00370               Medicaid Payments for Therapy Services in Excess of State Limits                              4
             We also requested additional claims and eligibility information from all
             eight sampled States, such as recipient age, diagnosis, benefit category, or
             prior authorization information, to determine whether the therapy services
             received complied with State limits. Using statistical analysis software
             (i.e., SAS), we calculated the number of paid Medicaid claims and the
             total number of units, visits, and/or dollars paid per recipient per period, as
             expressed in the appropriate State’s limit. For example, if a State
             expressed its limit in terms of visits per month, we calculated the number
             of visits per month for each recipient; if a State expressed its limit in terms
             of dollars per year, we calculated dollars per year. We compared these
             totals to the limits for each State to identify claims that exceeded those
             limits.
             We held followup discussions with State Medicaid staff regarding any
             identified paid claims for therapy services that exceeded the limits to
             determine whether any extenuating circumstances existed (e.g., the
             recipient received prior authorization for additional therapy services that
             was not apparent in the data we received from the State). We also asked
             State Medicaid staff to identify the reason(s) safeguards failed to prevent
             payments in excess of State limits. We calculated the total number and
             dollar amount of improperly paid claims.
             Standards
             This study was conducted in accordance with the Quality Standards for
             Inspection and Evaluation issued by the Council of the Inspectors General
             on Integrity and Efficiency.




OEI-07-10-00370     Medicaid Payments for Therapy Services in Excess of State Limits       5
             FINDINGS
             Thirty-five State Medicaid programs established limits
             on therapy services
             Using the responses to our questionnaire, we determined that 47 States
             provided physical and occupational therapy services and 48 States
             provided speech therapy services on a fee-for-service basis during our
             period of review. 8 Thirty-five of the forty-eight States that paid for any
             type of Medicaid therapy services placed limits on the amount of therapy
             services a beneficiary could receive. 9 Thirty-five States placed limits on
             physical and occupational therapy services and 33 States placed limits on
             speech therapy services.
             State Medicaid programs varied in the types of limits they established on
             therapy services. Even within a State, some programs varied the type of
             limit established among therapy disciplines. For example, the Colorado
             Medicaid program established a unit limit per calendar year for physical
             and occupational therapy with the potential for additional services
             approved through prior authorization. For speech therapy, the limit was a
             unit limit per date of service with no provision for additional services.
             We grouped the types of limits States established into seven categories.
             Table 2 provides a description and example of each category. Appendix A
             lists the types of limits each State established for each type of therapy
             service.




             8 The States that did not provide physical or occupational therapy through their fee-for-service Medicaid
             programs were the District of Columbia, Rhode Island, Tennessee, and Vermont. The States that did not
             provide speech therapy through their fee-for-service Medicaid programs were Rhode Island, Tennessee, and
             Vermont.
             9 The 13 States that did not place limits on the amount of therapy services a recipient could receive were

             Alaska, Arizona, Connecticut, the District of Columbia, Delaware, Louisiana, Minnesota, Mississippi, New
             Jersey, New Mexico, Oklahoma, South Carolina, and South Dakota.


OEI-07-10-00370         Medicaid Payments for Therapy Services in Excess of State Limits                                  6
             Table 2: Types and Examples of Therapy Service Limits Established by
             State Medicaid Programs, July 1, 2008, through June 30, 2009

                  State                   Type of Limit                          Example of Limit

                                          Maximum number of units             Maximum of one physical
                                          per specific procedure            therapy evaluation per day.
                  Alabama
                                          code in a specified
                                          timeframe.

                                          Maximum number of units          Maximum of 25 occupational
                                          in a specified timeframe;          therapy visits per recipient
                  Idaho                   prior authorization required     per calendar year; additional
                                          to exceed maximum.                   services must have prior
                                                                                           authorization.

                                          Maximum number of units          Maximum of 10 physician or
                                          in a specified timeframe;           clinic visits per 12-month
                  New York                additional services cannot       period, inclusive of physical,
                                          be approved through a              occupational, and speech
                                          prior authorization.                             therapy visits.

                                          Prior authorization required               Initial and 6-month
                                          for most or all services and             occupational therapy
                                          maximum number of units            evaluations do not require
                                          in a specified timeframe.        prior authorization. All other
                  California                                              occupational therapy services
                                                                              require prior authorization
                                                                                  and are limited to two
                                                                                 services per month per
                                                                                                recipient.

                                          For recipients up to age                     Up to age 21, one
                                          21, maximum number of                     occupational therapy
                                          units in a specified            evaluation per year; over age
                                          timeframe or maximum                 21, physical therapy must
                                          number of units per               follow the onset of an acute
                                          specific procedure code.         illness, injury, or impairment
                  Georgia
                                          For recipients over age 21,                  and requires prior
                                          therapy must be provided                          authorization.
                                          by a particular provider
                                          type or in a particular
                                          setting; prior authorization
                                          is required for all services.

                                          For recipients up to age            Up to age 21, no limits on
                                          21, no limits. For              any therapy service; over age
                                          recipients over age 21,                21, combined physical,
                                          maximum number of units             occupational, and speech
                  Nebraska
                                          in a specified timeframe or           therapy services cannot
                                          maximum number of units          exceed 60 visits per year per
                                          based on diagnosis, place                            recipient.
                                          of service, or provider type.

                                          Other (e.g., dollar limit per     Expenditures for combined
                                          specified timeframe).            physical and speech therapy
                                                                               services cannot exceed
                  Iowa                                                    $1,840 per year per recipient;
                                                                          expenditures for occupational
                                                                                therapy cannot exceed
                                                                          $1,840 per year per recipient.

             Source: OIG analysis of State responses, 2010.




OEI-07-10-00370             Medicaid Payments for Therapy Services in Excess of State Limits                 7
             All eight States reported safeguards to prevent
             payments in excess of State limits
             During our structured interviews with the eight selected States, we
             confirmed our understanding of the limits that each State reported on its
             initial questionnaire. Details of these limits are in Appendix B.
             We also asked State officials what safeguards (e.g., payment system edits,
             postpayment reviews) were established to prevent payments of claims that
             exceeded the limits. All eight States reported having system edits to
             prevent payments in excess of State limits, and four States reported
             performing postpayment reviews of therapy claims. Table 3 describes
             each State’s payment safeguards.

             Table 3: Payment Safeguards Reported by State Medicaid Programs,
             July 1, 2008, Through June 30, 2009

                  State                                              Edits              Postpayment Reviews

                                                                                 Determine whether the services were
                                      Check the total units or visits against   correctly billed as prescribed, whether
                  Arkansas                    the limit for evaluations and      services were delivered, and whether
                                                         treatment services                the services were medically
                                                                                                             necessary


                  Florida               Disallow payments over the unit or
                                                                                                        None reported
                                                               dollar limit

                                         Check for the number of services
                  Hawaii                    within previous 90- or 120-day
                                                                                                        None reported
                                       timeframe and check for number of
                                          minutes, units, and visits per day

                                                                                    Determine whether services were
                  Illinois             Deny payments for dates of service
                                                                                    provided as stated in the patient’s
                                        beyond the initial treatment period
                                                                                                           plan of care

                                                                                    Review services billed by physical
                  Maine                     Deny claims in excess of limits     and occupational therapy providers on
                                                                                                a case-by-case basis

                  Maryland              Check for number of units per day                               None reported


                  Michigan            Deny claims in excess of 36 within a
                                                                                                        None reported
                                                        90-day timeframe

                                      Match prior authorization information
                                                                                Each month, review a random sample
                                        with type of service and number of
                  North Carolina                                                  of paid claims to monitor utilization,
                                             units billed on the claim; edits
                                                                                      quality, and appropriateness of
                                      prevent payments for more than one
                                                                                                              services
                                                          evaluation per day

             Source: OIG analysis of State responses, 2010.




OEI-07-10-00370              Medicaid Payments for Therapy Services in Excess of State Limits                       8
             Despite reported program safeguards, six States
             improperly paid claims for therapy services totaling
             $744,000
             We identified 16,268 claims for therapy services that exceeded State
             limits. Six States in our review paid approximately $744,000 out of
             approximately $220 million for these claims. 10 As an example of
             improperly paid claims, the Hawaii Medicaid program has a limit of
             36 units of therapy service in a 120-day period. However, 1 recipient
             received 47 units of physical therapy from September 29, 2008, through
             January 21, 2009 (115 days). Therefore, 11 units were paid in error,
             totaling $378. We did not find any therapy services paid in excess of State
             limits in North Carolina. Because we did not test the functionality of
             safeguards, we are unable to determine whether safeguards in North
             Carolina (and other States) prevented improper payments or whether
             providers simply did not submit claims in excess of State limits. Table 4
             shows the number of improperly paid claims and amounts paid to
             providers for these claims.
             Table 4: Therapy Services Paid in Excess of State Limits, July 1, 2008,
             Through June 30, 2009

                                                                                                   Total Improper
                  State                              Number of Claims
                                                                                                        Payments

                  Arkansas                                                  930                                 $77,574

                  Florida                                                13,707                                $621,364

                  Hawaii                                                      60                                  $3,236

                  Illinois                                                1,517                                 $39,287

                  Maryland                                                    26                                  $2,235

                  Michigan                                                    28                                  $1,486

                      Total                                              16,268                                $743,679

             Note: We did not find any therapy services paid in excess of State limits in North Carolina. The analysis of
             therapy services paid in excess of State limits in Maine is discussed later in this report.
             Source: OIG analysis of Medicaid therapy claims, 2011.

             States lacked system edits to prevent some payments for
             therapy services in excess of limits, but described actions
             being taken to prevent future improper payments
             Although officials from all eight States initially reported having system
             edits to prevent claims in excess of limits from being paid, officials from

             10 The period of our review of therapy claims overlaps two Federal FYs; therefore, different FMAPs were in
             effect for this period. We did not calculate the Federal and State shares for these claims.


OEI-07-10-00370               Medicaid Payments for Therapy Services in Excess of State Limits                              9
             six States responded that edits were not set up to prevent the claims in
             excess of limits that we identified. Officials from several States told us
             that our analysis alerted them to areas in which system edits need to be
             implemented or reimbursement policy revised to prevent payments for
             therapy services in excess of State limits. Following are descriptions of
             claims paid in excess of limits and the State officials’ explanations of the
             reasons that the claims were paid improperly. This information may assist
             other State Medicaid programs in their program integrity efforts.
             In Arkansas, officials stated that system errors allowed claims to be paid
             for units of evaluation per year and units of treatment per day in excess of
             State limits. In some cases, this happened because the claims system did
             not indicate that the same type of service was billed by different providers
             on the same date. Arkansas officials reported that the system errors were
             corrected to properly control for therapy service limits.
             In Florida, the largest portion of claims paid improperly (10,936 claims
             totaling $491,604) was paid for more than 4 units per day or 14 units per
             week for services within each therapy discipline. Following our review,
             Florida Medicaid officials stated that they had implemented a system edit
             to deny claims for more than 4 units per day and were implementing an
             edit to deny claims in excess of 14 units per calendar week. The
             next-largest portion of improperly paid claims was paid for therapy
             evaluations for recipients under age 21 (2,162 claims totaling $103,990).
             Florida officials stated that these payments were caused by conflicting
             policy. 11 Following our review, officials stated that they distributed policy
             clarification to providers via a provider forum, email, and the therapy
             services section of the Florida Medicaid Web site. Additionally, Florida
             officials stated that they implemented an edit in the claims system to
             prevent payments for evaluations that exceed the limits.
             Illinois Medicaid officials explained that the claims system edits in place
             during the period of review did not consider time or session limits.
             Instead, Illinois relied upon providers to bill the appropriate amount and
             duration of services for the recipients’ conditions. Officials reported that a
             change to the Medicaid Management Information System to correct this
             vulnerability was initiated as a result of our review; however, it was not
             yet complete at the writing of this report.
             Hawaii, Maryland, and Michigan each paid relatively few claims in excess
             of State limits. Officials from these States focused on recouping payments
             from providers and stated that they would implement minor changes to the


             11
               Because of the conflicting policy, Florida officials believe these claims should not be considered
             overpayments. However, these claims meet the definition of improperly paid claims as defined in this report.


OEI-07-10-00370         Medicaid Payments for Therapy Services in Excess of State Limits                                10
             edits in their claims systems to prevent future improper payments. In one
             instance, the necessary system edit existed, but was put in place after the
             period of our claims review.

             Three States reviewed paid claims for therapy services
             that were potentially improper
             For two States, Florida and Illinois, we were able to evaluate most but not all
             aspects of therapy service limits. In addition, Maine Medicaid officials did
             not respond to our request to review our initial analysis of claims. Because
             we were unable to determine whether therapy service limits were exceeded,
             these three States paid claims for therapy services that were potentially
             improper.
             Not all Florida Medicaid program claims data indicated the
             type of service provided
             We were unable to evaluate one aspect of therapy service limits for Florida.
             The program limits outpatient hospital services (including therapy services)
             to $1,500 per year for recipients over age 21. Florida provided a dataset of
             all outpatient hospital services for our period of review; however, the dataset
             did not include descriptions of the types of services provided. We found
             623 claims for 175 recipients totaling $65,792 that exceeded the limit of
             $1,500 of outpatient hospital services per year. We cannot definitively
             determine which claims in excess of State limits were for therapy services;
             therefore, they are not included in Table 4.
             The Illinois Medicaid program did not provide sufficient
             information in all cases to determine whether therapy limits
             were exceeded
             The Illinois Medicaid program limits the number of therapy service sessions
             provided to a beneficiary during an initial evaluation and treatment period
             without prior approval from the program. The limit varies by diagnosis,
             ranging from 1 month and 8 sessions for the diagnosis “fracture of vertebral
             column,” to 3 months and 39 sessions for numerous diagnoses (e.g., closed
             head injury). 12 Payments for claims exceeding 3 months and 39 sessions are
             clearly improper, as no limit for any diagnosis exceeds this threshold.
             Table 4 identifies the 1,517 claims totaling $39,287 that exceeded the
             3-month and 39-session limit. Determining whether the remaining
             5,691 claims, totaling $133,333, were paid improperly would require
             individual assessment of whether the number and duration of services
             exceeded the maximum threshold set by Illinois Medicaid for the condition
             being treated. Such an assessment would be complicated by the fact that

             12 Illinois Department of Healthcare and Family Services, Handbook for Providers of Therapy Services,
             App. J-4, January 2009.


OEI-07-10-00370        Medicaid Payments for Therapy Services in Excess of State Limits                              11
             claims data indicate beneficiary conditions using diagnosis codes, but the
             Illinois Medicaid program establishes treatment limits based on general
             descriptive groupings of diagnoses. According to Illinois Medicaid program
             officials, there is no list of the diagnosis codes that correspond to the
             diagnosis groupings. Therefore, we could not determine whether the
             5,691 claims totaling $133,333 were paid properly.
             Maine did not respond to requests to validate our initial
             analysis
             The Maine Medicaid program limits the number of hours of service per day
             for most services and the number of services per year for one particular
             procedure code. Our initial analysis of therapy claims produced 695 claims
             totaling $56,628 that appeared to exceed the maximum number of hours of
             service per day. We provided these claims to Maine Medicaid officials on
             June 3, 2011. One of Maine’s therapy service limits involved recipients’
             condition(s), but we were not provided this information. Therefore, we
             needed a response from Maine to determine whether we correctly applied
             limits according to recipients’ condition(s). We made repeated attempts via
             telephone and email to obtain a response. We notified Maine officials on
             August 2, 2011, that we would report these claims as potentially improper.
             We did not receive a response to this notification.




OEI-07-10-00370     Medicaid Payments for Therapy Services in Excess of State Limits   12
             RECOMMENDATIONS
             Thirty-five State Medicaid programs established limits on therapy services
             during the period July 1, 2008, through June 30, 2009. All eight States we
             reviewed said they had safeguards to prevent payments in excess of State
             limits; however, six States improperly paid claims for Medicaid therapy
             services totaling approximately $744,000. Three States paid claims for
             therapy services that were potentially improper. Although we identified a
             relatively low number of claims for therapy services paid improperly, the
             errors were easily preventable in most instances. States that paid claims in
             excess of State limits described actions they are taking to improve
             program integrity safeguards based on our findings and to prevent future
             improper payments.
             We recommend that CMS:
             Work With States To Prevent Medicaid Payments for Therapy
             Services in Excess of State Limits
             In implementing this recommendation, CMS could work with all States to:
                  •   alert State Medicaid directors and staff to the findings of this report
                      so they can better target their program integrity efforts and
                  •   encourage State Medicaid programs to ensure that edits are in
                      place to prevent payment of claims for therapy services in excess
                      of State limits.
             In addition, CMS could ensure that Medicaid Integrity Contractors are
             aware of the findings of this report so they may, as appropriate, include
             therapy services in their Medicaid claims data analyses.
             Follow Up on the Inappropriate Claims Identified in Our Review
             We will forward information regarding the inappropriate claims we
             identified to CMS in a separate memorandum. Where our findings have
             identified an overpayment by the State to a provider for therapy services,
             the State should refund the Federal share to CMS.

             AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
             RESPONSE
             CMS concurred with our recommendations. In response to the first
             recommendation, CMS stated that the National Correct Coding Initiative
             (NCCI) methodologies provided State Medicaid agencies with
             claim-specific edits to improve the correct coding of claims and avoid
             paying for services that have been incorrectly submitted by the provider.
             States were required to implement the NCCI methodologies as of

OEI-07-10-00370       Medicaid Payments for Therapy Services in Excess of State Limits    13
             October 1, 2010. In addition, CMS plans to ensure that all State Medicaid
             agencies and Medicaid Integrity Contractors are aware of the findings of
             this report. In response to the second recommendation, upon receipt of
             OIG’s separate memorandum identifying the inappropriate claims, CMS
             will take action to ensure that the Federal share of any overpayment by the
             State Medicaid agency is refunded or recovered. We addressed the
             technical comment that CMS provided. For the full text of CMS’s
             comments, see Appendix C.




OEI-07-10-00370     Medicaid Payments for Therapy Services in Excess of State Limits   14
                    APPENDIX A
                    The following table illustrates the type of limit placed on therapy services
                    in each of the 35 States that had such limits.
                    Limit Type Key

                    1—Maximum number of units per specific procedure code in a specified
                    timeframe.
                    2—Maximum number of units in a specified timeframe; prior
                    authorization required to exceed maximum.
                    3—Maximum number of units in a specified timeframe; additional
                    services cannot be approved through a prior authorization.
                    4—Prior authorization required for most or all services and maximum
                    number of units in a specified timeframe.
                    5—For recipients up to age 21, maximum number of units in a specified
                    timeframe or maximum number of units per specific procedure code. For
                    recipients over age 21, therapy must be provided by a particular provider
                    type or in a particular setting; prior authorization is required for all
                    services, or no therapy services are covered.
                    6—For recipients up to age 21, no limits. For recipients over age 21,
                    maximum number of units in a specified timeframe based on diagnosis,
                    place of service, or provider type.
                    7—Other.
                    Table A-1: State Limits on Medicaid Therapy Services

       State             Therapy                               Limit Type
                         Service            1     2        3           4        5        6          7

       Alabama           Physical       

                         Occupational   

                         Speech                   No limit on speech therapy services

       Arkansas          Physical                                           

                         Occupational                                       

                         Speech                                             

       California        Physical                                  

                         Occupational                              

                         Speech                                    

                                                                                continued on next page




OEI-07-10-00370             Medicaid Payments for Therapy Services in Excess of State Limits             15
                 Table A-1: State Limits on Therapy Services (Continued)

      State          Therapy                                Limit Type
                     Service          1         2       3           4        5         6          7

      Colorado       Physical               

                     Occupational           

                     Speech                         

      Florida        Physical                                                                 

                     Occupational                                                             

                     Speech                                                                   

      Georgia        Physical                                            

                     Occupational                                        

                     Speech                                              

      Hawaii         Physical                                   

                     Occupational                               

                     Speech                                     

      Iowa           Physical                                                                 

                     Occupational                                                             

                     Speech                                                                   

      Idaho          Physical               

                     Occupational           

                     Speech                 

      Illinois       Physical                                                      

                     Occupational                                                  

                     Speech                                                        

      Indiana        Physical               

                     Occupational           

                     Speech                 

      Kansas         Physical                                                                 

                     Occupational                                                             

                     Speech                                                                   

      Kentucky       Physical                                                      

                     Occupational                                                  

                     Speech                                                        

                                                                             continued on next page




OEI-07-10-00370         Medicaid Payments for Therapy Services in Excess of State Limits              16
                 Table A-1: State Limits on Therapy Services (Continued)

      State           Therapy                                Limit Type
                      Service            1       2       3          4         5         6          7

      Maine           Physical                       

                      Occupational           

                      Speech                 

      Maryland        Physical                       

                      Occupational                                        

                      Speech                                              

      Massachusetts   Physical                                                                 

                      Occupational                                                             

                      Speech                                                                   

      Michigan        Physical       

                      Occupational   

                      Speech         

      Missouri        Physical                                            

                      Occupational                                        

                      Speech                                              

      Montana         Physical                                            

                      Occupational                                        

                      Speech                                              

      Nebraska        Physical                                                      

                      Occupational                                                  

                      Speech                                                        

      Nevada          Physical                                                      

                      Occupational                                                  

                      Speech                                                        

      New             Physical               
      Hampshire       Occupational           
                      Speech                 

      New York        Physical                       

                      Occupational                   

                      Speech                         

      North           Physical               
      Carolina        Occupational           

                      Speech                 

                                                                              continued on next page




OEI-07-10-00370         Medicaid Payments for Therapy Services in Excess of State Limits               17
                 Table A-1: State Limits on Therapy Services (Continued)

      State           Therapy                                Limit Type
                      Service          1        2        3         4          5           6        7

      North           Physical              
      Dakota          Occupational          
                      Speech                

      Ohio            Physical              

                      Occupational          

                      Speech                

      Oregon          Physical                                                                 

                      Occupational                                                             

                      Speech                                                                   

      Pennsylvania    Physical                                            

                      Occupational                                        

                      Speech                                              

      Texas           Physical                                            

                      Occupational                                        

                      Speech                                              

      Utah            Physical                                                                 

                      Occupational                                                             

                      Speech                                                                   

      Virginia        Physical              

                      Occupational          

                      Speech                

      Washington      Physical                                                        

                      Occupational                                                    

                      Speech                                                          

      West Virginia   Physical              

                      Occupational          

                      Speech                    No limit on speech therapy services

                                                                              continued on next page




OEI-07-10-00370         Medicaid Payments for Therapy Services in Excess of State Limits               18
                    Table A-1: State Limits on Therapy Services (Continued)

      State                 Therapy                                                 Limit Type
                            Service                    1            2          3           4            5           6           7

      Wisconsin             Physical                            

                            Occupational                        

                            Speech                              

      Wyoming               Physical                                                                            

                            Occupational                                                                        

                            Speech                                                                              

          Total States:*                               2            11          4          2            7           6           6
     *The sum of the limit type totals does not equal 35 because 3 States use different types of limits for different therapy
     services.
     Source: Office of Inspector General analysis of responses to questionnaire regarding therapy services limits, 2010.




OEI-07-10-00370                 Medicaid Payments for Therapy Services in Excess of State Limits                                    19
                APPENDIX B
Table B-1: Sampled States’ Limits on Therapy Services


                                                                                                                              Prior
                  Recipient                                                                                           Authorization
State             Category                                                         Description of Limit               May Override
                                                                                                                             Limit*

                                      For each therapy discipline, there is a limit of four units of evaluation
                                    each year and four units of treatment per day. Recipients may receive
                 Under age 21      four units per day of treatment with and without “UB” modifier (i.e., “UB”                        Yes
                                         modifier indicates service provided by physical therapy assistant).
                                                Recipients may receive one evaluation for an augmentative
Arkansas
                                                                      communication device every 3 years.

                                        In addition to the limits for recipients under age 21, recipients must
                  Over age 21           receive therapy services in outpatient hospital settings. Outpatient                         Yes
                                                                      hospital visits are limited to 12 per year.

                                  For all therapy disciplines combined, recipients may receive four units of
                                  therapy service per day. In addition, there is a limit of 14 units of service
                                      per week for each therapy discipline. Each recipient may receive one
                                    evaluation and one reevaluation per discipline every 6 months; the first
                 Under age 21        reevaluation may be done at 4 months. For an initial evaluation for an                           No
                                     alternative communication device, up to three providers (one physical,
                                               one occupational, and one speech) who are members of the
                                    interdisciplinary team may be reimbursed. Each recipient may receive
                                     one followup evaluation per alternative communication device, as well
                                                                       as one reevaluation every 6 months.

                                       Outpatient hospital services (including all disciplines of therapy) are
                  Over age 21      limited to $1,500 per year. For alternative communication devices, one                             No
Florida                                                                initial evaluation is allowed per year.

                                  Recipients may receive eight treatments related to an augmentative and
                      All ages         alternative communication device per year. One evaluation and two                              No
                                  followup evaluations related to wheelchair use per year are allowed; the
                                   third wheelchair evaluation must be at least 6 months after the second.

            Aged and Disabled          Recipients may receive a maximum of 4 hours of physical therapy,                               No
                      Waiver      2 hours of occupational therapy, and 4 hours of speech therapy per day.

            Mentally Retarded/          Recipients may receive a maximum of eight units of each therapy
               Developmental         discipline per day and one evaluation per therapy discipline per year.                           No
            Disabilities Waiver

                                           For physical and occupational therapy services, there is a limit of
                                  45 minutes of service per therapy discipline per day. In addition, there is
Hawaii                All ages         a limit of 36 units of service for procedure codes billed in units and a                      Yes
                                    limit of 12 visits for procedure codes billed in visits in a 120-day period
                                              per discipline. All speech therapy requires prior authorization.

                   Home and       Recipients may receive up to 26 hours of therapy per discipline per year.
Illinois    Community Based                                                                                                          Yes
             Services Waiver

                                                                                                                    continued on next page




OEI-07-10-00370           Medicaid Payments for Therapy Services in Excess of State Limits                                20
Table B-1: Sampled States’ Limits on Therapy Services (Continued)


                                                                                                                                                Prior
                           Recipient                                                                                                    Authorization
 State                     Category                                                                Description of Limit                 May Override
                                                                                                                                               Limit*

                                                                       Every service must have prior authorization unless:
                                                   1. the date of service is within 60 calendar days following discharge
                                                                                 from an acute care or rehab hospital, or
                                                 2. the service is covered by Medicare (i.e., Medicaid is simply paying
 Illinois                       Over 21                                          the copayment for a dual-eligible), or                                      No

                                                     3. the service is for an individual who was hospitalized in the past
                                                     30 days and was receiving therapy services while hospitalized, or
                                                4. the service occurs during the initial evaluation and treatment period
                                                          as defined in State policy. These periods vary by diagnosis.

                                              Recipients may receive one evaluation or reevaluation per condition per
                                                 year.** For physical and occupational therapy, treatment is limited to
                                                  2 hours per therapy discipline per day, plus up to 1 hour of collateral
                                                   contacts per condition (collateral contacts are made by the therapy                                   Yes
 Maine                     Over age 21              provider to the recipient’s other providers regarding the recipient’s
                                               treatment). Recipients may receive up to two sensory integration visits
                                                  per year.*** Audiology evaluations must be at least 4 months apart;
                                                     otherwise, no specific limit is placed on speech therapy services.

                                              Recipients may receive one physical therapy evaluation per condition.**
                                               For occupational therapy, recipients may receive one unit of evaluation
                          Under age 21       and up to four units of treatment per day. For speech therapy, recipients                                       No
                                                 may receive one unit of evaluation and up to one unit of individual or
                                                                                             group treatment per day.
 Maryland
                                             Only physical therapy is provided through fee-for-service arrangements;
                                               occupational and speech therapy are provided through managed care.
                                              Recipients may receive one physical therapy evaluation per condition.**                                        No
                           Over age 21       Recipients may receive up to four units of physical therapy treatment per
                                               day, with the exception of certain procedures, which are limited to one
                                                                                                          unit per day.

                                All ages                                                      Limits vary by procedure code.                                 No

                             Seriously                                                        Limits vary by procedure code.
 Michigan                  Emotionally                                                                                                                       No
                     Disturbed Waiver

                     Children’s Waiver                                                        Limits vary by procedure code.                                 No

 North                                           Recipients may receive up to six visits per therapy discipline per year,                                Yes
 Carolina                       All ages                                     excluding evaluations and reevaluations.

*Prior authorization means that the provider must seek permission from the State to provide the service to a particular recipient. Typically, requests for
prior authorization must be accompanied by documents justifying the medical necessity of the service and outlining the patient’s treatment plan. If the
State does not grant the request, Medicaid will not pay the provider for the service.

**Maine and Maryland limit some therapy services based on recipients’ condition. We were unable to determine whether the limits for these services
were exceeded because we did not receive information on recipients’ conditions.

***Sensory integration is a type of occupational therapy that takes place in a room specifically designed to stimulate all of the patient’s senses. The goal
of sensory integration therapy is to improve the brain’s ability to process sensory information. It is often used to treat autism spectrum disorders.

Source: Office of Inspector General analysis of State responses, 2010.




 OEI-07-10-00370                     Medicaid Payments for Therapy Services in Excess of State Limits                                        21
                       APPENDIXC
                       Agency Comments


     "",-"",.,~


 (        ~          DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Cent91's for Medicare & Medicalcl Senri08$

     ,~                                                                                     Ad",in{strRtor
                                                                                            Washlngloo. OC 20201




             DATE:
                            JAN 192012
             TO; 	          Daniel R. Levinson
                            I~-ctor GOI.lerai
                                                 /S/
             FROM: 	        Marilyn..Tav.e~
                            Acting Adniinistrntor

             SUBJECl': 	 Office of1nspector General (OIG) Draft Report: " Medicaid Payments for
                         Therapy Services in Excess of State LimitS" (OEI-07-10-00370)


             The Centers for Medicare & Medicaid Services (CMS) a ppreciates the opportunity to comment
             on this subject OIO draft report. The objectives of the report were: I) to identify the limits that
             States established on physical; occupational; and speech. hearing, and language therapy services;
             2) to determine payment safeguards that States established to prevent payments for therapy
             services in excess of State limits; and 3) to identify Medicaid payments for therapy services that
             exceeded State limits.

             The 010 found that 35 Slate Medicaid programs have established limits on therapy services.
             The review of claims was focused on therapy services for the I· year period beginning July I,
             2008, for 8 States. all of which have established payment safeguards to prevent payments in
             excess ofState limits. Six of the 8 States were found to have improperly paid therapy claims
             totaling $744,000, out ofthe sample of $220 million paid for therapy claims. 010 noted that the
             relatively low number of claims payment errors would be easily preventable with system edits in
             most cases and that several States reported having already taken corrective action to address
             OlG's findings. Moreover, eMS has taken a comprehensive approach by establishing the
             National Correct Coding Initiative (NCCI) in October 2010 to require States to implement an up­
             to-date libr.uy of system edits to prevent improper payments across a wide variety of Medicaid
             services such as those identified in this report.

             We appreciate the OIO's efforts in assessing the effectiveness of States' safeguards to prevent
             payments for Medicaid therapy services that exceed State limits, and reporting on system
             vulnerabilities. Our response to each of the 010 recommendations follows our technical
             comment

             Technical Comment

             Please note that the first recommendation in the report's summary statement is not the same a.~
             the first recommendation in the concluding section on page 13. The distinction between




OEI-07 -10-00370                 Medicaid Payments for Therapy Services in Excess of State Limits                                        22
Agency Comments (Continued)




OEI-07-10-00370    Medicaid Payments for Therapy Services in Excess of State Limits   23
Agency Comments (Continued)




OEI-07-10-00370    Medicaid Payments for Therapy Services in Excess of State Limits   24
             ACKNOWLEDGMENTS
             This report was prepared under the direction of Brian T. Pattison, Regional
             Inspector General for Evaluation and Inspections in the Kansas City
             regional office, and Brian T. Whitley, Deputy Regional Inspector General.
             Tricia Fields served as the team leader for this study. Other principal
             Office of Evaluation and Inspections staff from the Kansas City regional
             office who contributed to the report include Michael J. Brown and
             Michala Walker; central office staff who contributed include Kevin Farber
             and Scott Manley.




OEI-07-10-00370     Medicaid Payments for Therapy Services in Excess of State Limits   25
                      Office of Inspector General
                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
